~

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief for the
Project on Fair Representation as Amicus Curiae in
Support of Petitioners in 21-378, Texas u. Deb
Haaland, Secretary of the Interior, et al. ans 21-380,
Chad Everet Brackeen, et al. u. Deb Haaland, Secretary
of the Interior, et al., were sent via Next Day Service to
the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 5th day of October, 2021:
Judd Edward Stone II
Texas Attorney General's Office
P.O. Box 12548 (MC 059)
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
Counsel for State of Texas
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
Room 5616
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Federal Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Matthew Dempsey McGill
Gibson, Dunn & Crutcher LLP
1050 Connecticut Avenue, NW
Washington, DC 20036
(202) 887-3680
mmcgill@gibsondunn.com

Counsel for Chad Everet Brackeen, et al.
Adam H. Charnes
Kilpatrick Townsend & Stockton, LLP
2001 Ross Avenue, Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

Counsel for the Indian Tribe Respondents
PaulW.Spruhan
Navajo Nation Department of Justice
Litigation and Employment Unit
P.O. Box 2010
Window Rock, AZ 86515
(928) 871-6210
paspruhan@nndoj.org

Counsel for the Navajo Nation

William S. Consovoy
J. Michael Connolly
Counsel of Record
Cameron T. Norris
Consovoy McCarthy PLLC
1600 Wilson Blvd., Ste. 700
Arlington, VA 22209
(703) 243-9423
mike@consovoymccarthy.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 5, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affi.ant on the date below designated.
Date:

O~

dtJ 21-/

J;c:lj, ~

Notary Public
[seal]

6;

'

